C'OCKLE
2311 Douglas Street AK

Legal Briefs E-Mail Address:
8 Es re 923 contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-1058

HOSPIRA, INC.,
Petitioner,

v.
ELI LILLY AND COMPANY,

Respondent.

AFFIDAVIT OF SERVICE

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMERICA’S HEALTH INSURANCE PLANS AS
AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the

following:
SEE ATTACHED
To be filed for:
JULIE SIMON MILLER ANNA-ROSE MATHIESON
MICHAEL S. SPECTOR Counsel of Record
AMERICA’S HEALTH KATY GRAHAM
INSURANCE PLANS CALIFORNIA APPELLATE
601 Pennsylvania Ave., NW LAW GROUP LLP
Washington, DC 20004 96 Jessie Street
San Francisco, CA 94105
(415) 649-6700

annarose@calapplaw.com

Counsel for Amicus AHIP

Subscribed and sworn to before me this 26th day of March, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

R GENERAL MOTARY-State of Nebraska
RENEE J. GOSS 0 : Lu?
My Comm. Exp. September 5, 2023

Notary Public (7

 

Qudiar-h. Ghlhe

Affiant 39651
SERVICE LIST

Adam G. Unikowsky
Jenner & Block LLP
1099 New York Avenue, NW, Suite 900
Washington, DC 20001
(202) 639-6041
AUnikowsky@jenner.com
Counsel for Petitioner Hospira, Inc.

Adam Lawrence Perlman
Latham& Watkins LLP
555 Eleventh Street NW, Suite 1000
Washington, DC 20004
(202) 637-2200
adam.perlman@lw.com
Counsel for Respondent Eli Lilly and Company
